No. ____________
IN THE

~uprenre Olnurt nf tqe ~uiteo ~fates
PABLO BASTIDAS,

Petitioner,
v.
MATTHEW ATCHLEY, WARDEN,

Respondent.
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE

I, Michael D. Weinstein, a Deputy Federal Public Defender in the Office of
the Federal Public Defender, which was appointed as counsel for Petitioner under
the Criminal Justice Act, 18 U.S.C. ยง 3006(A)(b), and who is a member of the Bar of
this Court, hereby certifies that, pursuant to Supreme Court Rule 29.3, on May 5,
2021, a copy of the enclosed Motion for Leave to Proceed in Forma Pauperis,
Petition for a Writ of Certiorari, Appendix, and Certificate Pursuant to Rule 33 was
mailed postage prepaid and electronically mailed to:

Kim Aarons
Deputy Attorney General
Office of the Attorney General
300 South Spring Street Suite 1702
Los Angeles, CA 90013
Email: Kim.Aarons@doj .ca.gov
Counsel for Respondent

All parties required to be served have been served. I declare under penalty of
perjury under the laws of the United States of America that the foregoing is true
and correct.
Executed on May 5, 2021 at Los Angeles, California.

MARK R. DROZDOWSKI
Deputy Federal Public Defenders
Attorneys for Petitioner
*Counsel of Record

